E-Mail Address:

COCKLE

Legal Briefs

2311 Douglas Street

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 20-1334
BRADLEY BOARDMAN,
a Washington Individual Provider, et al.,
Petitioners,
v.

JAY R. INSLEE,
Governor of the State.of Washington, et al.,
Respondents.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that 1 did, on the 23rd day of April, 2021, send out
from Omaha, NE 3 package(s) containing 3 copies of the BRIEF OF THE BRONX HOUSEHOLD OF FAITH AS AMICUS
CURIAE IN SUPPORT OF PETITIONERS in the above entitled case, All parties required to be served have been served by
Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
KRISTEN K. WAGGONER D. ALICIA HICKOK
JOHN J. BURSCH Counsel of Record
DAVID A, CORTMAN MARK D. TATICCHI
JORDAN LORENCE, FAEGRE DRINKER BIDDLE
RORY T. GRAY & REATH LLP
ALLIANCE DEFENDING FREEDOM One Logan Square, Suite 2000
440 First Street, NW, Suite 600 Philadelphia, PA 19103
Washington, DC 20001 (215) 988-2700

alicia. hickok@faegredrinker.com
Counsel for Amicus Curiae

Subscribed and sworn to before me this 23rd day of April, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GEMERAL ROTARY-State of Kebraska

Notary Public Affiant 40902

Hy Comm. Exp. September 8, 2023

 
Paul D. Clement
KIRKLAND & ELLIS LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
202-389-5000
paul.clement@kirkland.com
Counsel for Petitioners

Peter B. Gonick

OFFICE OF THE WASHINGTON ATTORNEY GENERAL

P.O. Box 40100

1125 Washington St., SE

Olympia, WA 98504-0100

360-753-5528

peterg@atg.wa.gov

Counsel for Respondents Jay Inslee, Robert Hines, and Ross Hunter

Paul J. Lawrence

Gregory J. Wong

Claire McNamara

PACIFICA LAW GROUP

1191 Second Avenue, Suite 2000
Seattle, WA 98101

206-245-1700
paul.lawrence@pacificalawgroup.com
greg.wong@pacificalawgroup.com
claire.mcnamara@pacificalawgroup.com
Counsel tor Respondent Campaign to Prevent Fraud and Protect Seniors
